HHS/OIG, Audit - "Review of Medicaid Community Mental Health Provider
Services In Illinois," (A-05-05-00055)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Community Mental
Health Provider Services In Illinois," (A-05-05-00055)
September 29, 2006
Complete Text of Report is available in PDF format (221 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether Medicaid Community Mental Health Provider (CMHP) services in Illinois were provided by qualified staff, were adequately documented, and were accurately paid on behalf of eligible beneficiaries. Based on a statistical projection of the sample results, we estimate that Illinois overpaid CMHPs at least $11,477,280 ($5,971,577 Federal share) in reimbursement for services provided during FY 2003. The overpayments resulted from the providers’ non-compliance with either the Federal requirements of the State Medicaid Manual or the State requirements of the approved State plan, the Illinois Administrative Code, and/or payment rate schedules.
We recommended that Illinois refund $5,971,577 to the Federal Government and furnish written notification to CMHPs reminding them to prepare and retain complete documentation to fully support all applicable Federal and State claiming provisions. Illinois did not address our recommendations, but stated that it would use the results of the audit to reiterate required policies and improve its administration of the program.